       REFERRALS    BY MEDICAID
    AGENCIES TO FRAUD CONTROL
                 UNITS




                 Richard P. Kusserow
                 INSPECTORGENERAL




OAI-O3-8840170                         OCTOBER 1989 

                                EXECUTIVE SUMMARY


PURPOSE
The purpose of this inspection was twofold: to assessthe effectivenessof the processby
which Medicaid agenciesrefer possible fraud casesto Medicaid Fraud Control Units, and to
suggestmethods to improve the process.



BACKGROUND
Established in 1967, Medicaid is a State administered program which receivesFederal
matching funds and pays medically related benefits to needy beneficiaries. Almost all
Medicaid agenciescontain a surveillance and utilization review subsystem(SURS) which
servesas the focus for identifying fraud and abuseby Medicaid providers and beneficiaries.
Federal oversight of the Medicaid program is vestedin the Health Care Financing
Administration (HCFA).

Responsibility for investigating and prosecuting of Medicaid fraud, however, is vestedin a
Medicaid Fraud Control Unit (MFCU). Fraud units have now beenestablishedin 38 States
and are generally part of the States’Attorney General’s office. Federal oversight of MFCU
activity is vestedin the Office of Inspector General (OIG).

Medicaid agenciesand fraud units are required by regulation to enter into a Memorandum of
Understanding @IOU) in which the Medicaid agency agreesto refer all casesof suspected
fraud to the fraud unit. Fraud Control Units are also prohibited by regulation from duplicating
efforts by Medicaid agenciesto identify providers for investigation. Identifying possible fraud
by Medicaid agenciesand investigating and prosecuting by independent fraud units is the
system clearly envisaged by this legislative/regulatory structure.



FINDINGS

Sk& Medicaid Agencies Are Failing To Refer A Significant      Number Of Potential Fraud
Cases.
       We selecteda sample of over 150 unreferred casesin six Medicaid agencies. We
       determined that 36.5 percent of thesecasesshould have beenreferred to the fraud
       control units. In three of theseagencies,the rate was over 40 percent.




                                               i
The HCFA Is Not Monitoring     Fraud Referrals By Medicaid Agencies.

       The HCFA’s oversight of the Medicaid agency’s surveillance and utilization subsystem
       (SURS) does not include monitoring this system to assureappropriate referrals of
       possible fraud casesto the Medicaid Fraud Control Units.

A Close Working Relationship Results In The Most Effective Referrals.

       This inspection found that a significant difference between effective and ineffective
       referral systemswas how closely Medicaid agenciesand fraud units cooperated.
       Those Stateswhere the fraud unit staff works directly with Medicaid staff to select
       potential casesseemto have the best results.

Not All Potential Sources Of Referral Are Used In Medicaid Agencies.

       In addition to SURS, some Stateshave establishedspecial investigative units to
       develop fraud and abusecases. Also Statescharacteristically perform their financial
       audits in a unit other than the SURS unit. Both of thesefunctions are potential sources
       of fraud referrals which are not integrated into the referral process.

Medicaid Agencies Would Benefit From Technical Assistance In Identifying       Or Referring
Potential Fraud Cases.

       There hasbeen little technical assistanceto Medicaid agenciesin identifying and
       referring potential fraud As a result and becauseof competing concerns,State
       Medicaid agencieshave not emphasizedidentifying or referring casesin their
       screening systems.


RECOMMENDATIONS

The HCFA Should Hold State Medicaid Agencies Accountable For Making Fraud Refer­
rals To MFCU’s.

       This can be done by measuring and evaluating fraud referrals by Medicaid agenciesas
       part of its systemsperformance review (SPR) and taking appropriate monetary
       penalties for poor referral performance asprovided by the SPR.

The HCFA Should Encourage State Medicaid Agencies To Develop A Close Working Reha­
tionship With MFCU’s, Including MFCU’s Involvement In Actually Selecting Fraud Cases
And Developing Effective Guidelines For Referring Of Possible Fraud Cases.

The HCFA Should Assure That AU Possible Sources Within The Medicaid Agencies Are
Making Appropriate Referrals, Including Separate Financial Audit And Investigative Units.



                                               ii
The HCFA Should Assure That Medicaid Agencies Are Given Increased Technical Assis­
tance For Identifying And Referring Of Potential Fraud The HCFA Should Also Desig­
nate A Coordinator To Focus This Assistance And To Coordinate With The OIG In
Connection With Related OIG Activities Outlined In This Report.



         OIG OVERSIGHT OF MFCU’S

         As a result of this inspection, the OIG will be working directly with MFCU’s
         to help the units interact with the Medicaid agencies. Many of our activities
         will be parallel to our recommendations in this report, and consequently, we
         have indicated theseactivities tier related recommendations to the HCFA.


COMMENTS BY THE HEALTH CARE FINANCING ADMINISTRATION
The Health Care Financing Administration generally agreedwith our findings and
recommendations. However, the actions they are proposing to take, while constructive, are
not fully responsive to our recommendations that HCFA:

       (1) hold State agenciesaccountablefor making referrals to MFCU’s;

       (2) 	 encourageState agenciesto include in their MOU’s provisions that would
             strengthenthe relationship between State agenciesand MFCU’s and;

       3) 	 provide increasedtechnical assistancefor the identification of fraud
            and abuse.

The HCFA comments and the OIG responseto those comments are contained on pages 12-14
of this report.




                                              ...
                                              111
                                      TABLE OF CONTENTS


EXECUTlVE SUMMARY

INTRODUCTION ..*................................................                                                        1


           State Medicaid Agencies are Failing to Refer 

           a Significant Number of Potential Fraud Cases . . . . . . . . . . . . . . . . . . 5 

           The HCFA is not Monitoring Fraud Referrals 

           By Medicaid Agencies . . . . . ..*..*...........................                                             5


           Recommendation             .......................................... 7



           A Close Working Relationship 

           Results in the Most Effective Referrals . . . . . . . . . . . . . . . . . . . . . . . . . 7 

           Recommendation             *......,..................................                                        8



           Not All Potential Sources of Referral 

           are Used in Medicaid Agencies . . . ..*........*................                                             9

           Recommendation             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



           Medicaid Agencies Would Benefit from 

           Technical Assistance in Identifying and 

           Referring Potential Fraud Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

           Recommendation             . ..a.....................*................                                     11 


AGENCY COMMENTS . . . . . . . . . . . . . . . ... . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                                     INTRODUCTION 




BACKGROUND
Both the Medicare and Medicaid programs were establishedin 1967 by Act of Congress. Un­
like Medicare which is federally administered, Medicaid is a State administered program
which receivesFederal matching funds. Each State is required to designate a State agency
(SA) which is the organization in State Government responsible for Medicaid management.

Surveillance and Utilization Review Subsystem (SURS) - In 1972, when it becameapparent
that many State Medicaid agencieswere experiencing difficulties in managing the Medicaid
program, Federal funds were made available for developing Medicaid managementinforma­
tion systems(MMIS). Stateswere reimbursed at 90 percent of costs for developing and im­
plementing the system.

One of the subsystemsof MMIS is the Surveillance and Utilization Review Subsystems
(SURS) which is designed to apply post payment screensto identify patterns which could indi­
cate fraud or abuse. (All but four small Statesnow have SURS; in thesestatesresponsibility
for referrals lies with the overall operation of the SA.) While the Statesalso have other detec­
tion methods available such as financial audits and explanation of Medicaid benefits mailed to
beneficiaries, the focus of identifying fraud and abuseis in the SURS areain most States.

Federal oversight of all State Medicaid agencies’functions including MMIS, is vestedin the
Health Care Financing Administration (HCFA). Initially, HCFA conducted State assessments
of Medicaid agencieswhich included an element measuring the number of referrals to the
Medicaid Fraud Control Unit. In 1981, however, HCFA instituted SystemsPerformance Re-
views (SPRs) which are performed at least once in every 3-year period and used as the basis
of reapproval for MMIS funding. However, thesereviews do not measureidentifying possible
fraud. Also, the SPRsexamine theSURS process but do not measurethe resdts of SURS ac­
tivity-

Medicaid Fraud Control Units (MFCU’s)      - In 1977, CongressestablishedMFCU’s to inves­
tigate and prosecutecasesof Medicaid fraud. The MFCU’s are now in 38 States. During the
period of October 1,1987, to September30,1988, MFCU’s produced 465 convictions and
$11.4 million in fines, overpayments, and restitutions.

The MFCLJ’s are funded at 90 percent matching for the first three yearsof operation and 75
percent Federal funding for ongoing operations. During Fiscal Year 1989, the OIG adminis­
tered approximately $45 million in grants to the MFCU’s.




                                                1

To assureinvestigative independence,Congressprohibited theseunits from being part of the
same“umbrella” organization which contained the Medicaid single State agency. Generally,
the MFCU’s are located in the States’Attorney General’s office and 30 of the 38 MFCU’s per-
form prosecutive as well as investigative functions.

While HCFA was originally responsible for MFCU oversight, since 1978 Federal oversight of
MFCU’s has been vestedin the Office of Inspector General, Department of Health and Human
Services. Responsibility for OIG oversight of MFCU’s is vestedin the State Fraud Branch,
Office of Investigations. This branch is scheduledto conduct biennial recertifications of all
MFCU’s as well asproviding technical assistanceand advice on an ongoing basis. Currently
a system of performance indicators is being developed in cooperation with the National Asso­
ciation of Medicaid Fraud Control Unit Directors to enhancethe effectivenessof Medicaid
fraud control activities.

Memorandum     of Understanding    - Each MFCU is also required by regulation to enter into a
Memorandum of Understanding with the SA. The MOU’s are required by regulation to in­
clude an agreementby the SA to refer all casesof suspectedfraud to the MFCU and to pro-
vide the MFCU accessto SA records. The MOU’s have now been executedin every State
which has a fraud unit.

PROBLEMS WITH THE PROCESS
Recently, indications are that the SA referral processmay not be working asdesigned. For ex-
ample, a General Accounting Office (GAO) report issuedin October 1986 indicated that on
the averageonly about 35 percent of all MFCU casesare basedon Medicaid agency referrals.
Staff of the OIG’s Office of Investigation, in recertification visits to over 20 MFCU’s, found
that many MFCU’s believe a problem exists with both the quantity and quality of SA referrals.
In a recent OIG inspection, 20 of the 38 MFCU directors indicated this sameproblem.

We decided to focus this inspection on the processof referring suspectedfraud casesrather
than on the processesfor identifying such cases. Methods for improving the Medicaid SURS
activity including the Medicaid agency-fraud unit relationship are the subject of a best prac­
tices project that the Health Care Financing Administration is now conducting.

WHAT WE DID
Becauselittle comparative data was available to gaugethe quantity or quality of Medicaid re­
ferrals, we contacted every unit to obtain such information.

To measurequantity, we askedeach unit to tell us the number of referrals it had received from
the State agency in 1987. To obtain a standardmeasure,we then divided this number by the
number of professional staff in the unit. The following table depicts the spreadthat was re-
ported:




                                               2

                 MEDICAID REFERRALS PER PROFESSIONAL STAFF

                  Quartile                               Quartile Medians

                 Highest 25%                              4.44iProfessiona.l

                  Second 25%                               1.93Professiona.l

                 Third 25%                                 1.OO/Professional

                 Lowest 25%                                 .SO/Professional




Thus in 1987 the median State in the highest referral quartile received almost nine times as
many referrals for each professional staff member asthe median State for the lowest quartile.

We also attempted to obtain a measureof quality by asking each unit to tell us the percentage
of its indictments in 1987 which resulted from the State agencyreferrals. Since only about
one-half of the units could provide us with this information, we usedour quality measureto
supplement our more complete measureof quantity, also taking into account unit size and the
desirability of geographic distribution in selecting a sample.

Based on this information, we selectedfive Stateswhich ranked in higher quartiles for quan­
tity/quality. We studied theseStatesto determine effective practices that can be adopted by
other fraud units and Medicaid agenciesworking together with Federal officials to improve
their referral systems.

Also, we selectedsix other Stateswhich our indicators placed in the lowest quartiles for quan­
tity/quality. In theseStates,in addition to holding discussionswith fraud unit and Medicaid of­
ficials, we also reviewed overpayment caseswhich had beendeveloped by the Medicaid           _
agenciesbut which had not beenreferred by the fraud units. Our review was intended to deter-
mine whether a substantial number of thesecasesshould have beenreferred.

We visited Medicaid agenciesand fraud units in eleven states: Arkansas, Florida, Indiana,
Maine, New York, North Carolina, Tennessee,Texas,Utah, Virginia, and Washington. We
also held discussionswith the HCFA central office staff and regional office staff in four re­
gions. In addition, we presentedon the study’s goals and methodology to a meeting of the
MFCU Directors’ Association and the SURS Units’ Association.



                                                3

LOCATION OF MEDICAID FRAUD CONTROL UNITS
                                   cl
                                    NH




          :::::::~.~:;:~:;:~:~:~:~
          i...._........
          $$&i~~~i;;$      MFCU STATES VISITED DURING INSPECTION
          “.‘.‘.‘.:.:..‘.:...:.:.,.
          ElIIll
                   MFCU STATES
          l!zB
                                         FINDINGS


STATE MEDICAID AGENCIES ARE FAILING TO REFER A SIGNIFICANT NUM­
BER OF POTENTlAL FRAUD CASES
We visited six Stateswhich ranked in the lower quartiles in the quantity/quality of referrals.
In theseStates,in addition to discussions,we performed a casereview to determine if there
were casesclosed by the Medicaid agency which should have beenreferred. Our review
teamsin each State included professional staff of our Office of Investigations (OI) as well as
analyst staff from our Office of Analysis and Inspections. Our casereviews consisted of ana­
lyzing the material in the folder maintained by the Medicaid agency and did not involve inde­
pendent development or additional contacts. Our sample concentratedon casesinvolving
large overpayments since such casesgenerally have the clearestprosecutive appeal.
                                                         .
We found a significant number of unreferred casesshould have beenreferred to the Medicaid
Fraud Control Unit. Such non-referrals exist even though State agency staff is aware of the IX­
quirement in their Memorandum of Understanding to refer casesof suspectedfraud to the
MFCU and, as noted below, even in some caseswhere specific referral criteria have been de­
veloped to supplement the MOU. We reviewed over 200 casesin six States. In 156 of the
caseswe reviewed, we could definitely determine that the caseshould or should not have been
referred. Seethe following table.



                               RESULTS OF CASE REVIEWS


                                             Number                % That Should
               State                         Reviewed           Have Been Referred


                S                                26                      73%
                T                                29                     20.7%
                W                                32                     40.6%
                X                                19                     52.6%
                Y                                27                     29.6%
                z                                23                     4.3%


             TOTAL                              156                     36.5%




                                               5

Examples of our findings are asfollows:


        .	     In one State, the State agency and the Fraud Control Unit had developed specific
               referral criteria in addition to their MOU. We found, however, a significant
               number of casesin which thesecriteria were not applied, including caseswhere
               servicescould not be documented or which involved persistent upcoding.

        .	     In another State, little communication of any kind existed between the Fraud
               Unit and the State agency. Although the Fraud Unit had specifically requested
               the State agency to provide it with copies of all overpayment letters, we found
               casesin which this requesthad not been carried out. These casesinvolved large
               overpayments which the Statecollected but did not inform the Fraud Unit.

        .	     In another State, the Medicaid agency structure included a investigative unit
               whose staff were criminal investigators. Casesinvestigated by this unit had not
               beenreferred to the Medicaid Fraud Control Unit. Also State agency
               managementhas moved to limit referrals that had beenmade through informal
               staff contacts and discussions.

Conjlicting   Concerns and Priorities 

We discussedconflicting concernsand priorities with both State agency and Fraud Unit man­

agement which may be interfering with effective referrals. The deftiteness of our analysis is 

limited by the obvious sensitivity on this issue by Medicaid agency managementand the 

clearly speculative nature of opinions offered by Fraud Unit staff. However, we were able to 

discern common elements in many of our interviews in what are believed to be State agency 

perceptions which may influence referral decisions:                                    \



        .	     Medicaid agenciesmake many referrals that do not result in prosecutions but
               which involve considerable work on the State agency’s part.

        .	     Referring a caseinvolving a significant overpayment to the Fraud Unit where it
               may undergo a time-consuming investigation may delay or even prevent the
               Medicaid agency from claiming that overpayment.

        .	     Medicaid agenciesare liable for the Federal matching shareof an overpayment
               as soon as that overpayment is identified. Referring the identified overpayment
               to the Fraud Unit, however, may delay collecting of the overpayment from the
               provider until long after the State agency hasreimbursed the Federal matching.
               (This problem, however, is being dealt with by a proposed regulation which will
               require the Federal matching adjustment only when the overpayment is
               recovered.)



                                                6

       .	    Fraud investigations could affect’the accessof Medicaid beneficiaries to a full
             range of medical servicesby discouraging provider participation in the program.
             This could be especially seriouswhere there was already limited participation by
             a particular specialty.

       .	    Medicaid fraud convictions could be seenasreflecting on the administration of
             the Medicaid program. Publicized fraud convictions could be interpreted as
             resulting from loose administration of the Medicaid program.


THE HCFA IS NOT MONITORING FRAUD REFERRALS BY MEDICAID AGENCIES
Until 1982, the HCFA conducted State assessmentsof Medicaid agencieswhich included re­
ferrals to Medicaid Fraud Units asa performance factor. However such State assessmentsare
generally no longer performed. Rather HCFA has selectedas the sole measureof performance
of the SURS unit a SystemsPerformance Review (SPR) performed by regional HCFA sys­
tems staff. The SPR, however, measuresthe compliance of the SURS process with Federal re­
quirements (for instance, whether a pm-assignednumber of hospitals were reviewed).
Measurement of ourputs is not part of the SPR. Thus, fraud referrals are not being evaluated
on a systematic basis.

We believe the HCFA should usethe SPR to measurethe Medicaid agency’s referral activities.
While such a measurementintroduces a new element into the SPR, this element clearly adds
to the overall meaningfulness of the evaluation process.

The HCFA should also consider contacts with Fraud Unit aspart of their evaluation. These
units are systemsusersand thus should be in a position to offer the HCFA insights in improv­
ing the process.

In addition to measuring SURS performance, the SPR also provides for financial penalties for
Medicaid agenciesout of compliance with systemsrequirements. In view of the relationship
between processand output, it would be totally appropriate to apply suchpenalties to agencies
consistently below par in their fraud referrals.


RECOMMENDATION

The HCFA Should Hold State Medicaid Agencies Accountable For Making Fraud Refer­
rals To MFCU’s.

       This can be done by measuring and evaluating fraud referrals made by Medicaid
       agenciesaspart of its SystemsPerformance Review and taking appropriate monetary
       penalties for poor performance asprovided by the SPR.
                                                         --


                                              7

            Related OZG Activities:    The OIG is developing a system for compara­
            tive indicators of referrals received from the State agenciesby Fraud
            Units. This indicator system should streamline the processand allay
            Medicaid agency concernsas to wasted effort on their part as well asde­
            lays in MFCU actions.


            The OIG is also expanding its MFCU recertification guide to cover the
            areaof referrals in greaterdepth. In addition, aspart of its recertifica­
            tion visits the OIG staff will regularly contact the parallel State agency
            for an in-depth discussion of referrals to the Fraud Unit. These discus­
            sions can serveas the basis for joint State agency Fraud Unit’s efforts to
            resolve differences between the two organizations.




A CLOSE WORKING RELATIONSHIP RESULTS IN THE MOST EFFECTIVE RE­
FERRALS
We visited five Stateswhich ranked among the top quartiles in the quantity or quality of 1987
referrals. Examples of the basic working arrangementswe found in theseStatesare below:


       .	     In one State, SUBS exceptions are discussedat regular meetings between the
              SURS director and the MFCU director. The MFCU director then selectscases
              for fraud development. In addition, the MFCU hasfurnished the Medicaid
              financial audit staff with specific criteria for referring casesto the fraud unit;
              thesecriteria resulted in a significant number of audit referrals. By combining
              thesesourcesof referral, this State hasachieved the highest referral rate in the
              nation, with over 8 referrals for every MFCU professional staff member.

       .	     In another State, the State agency and the MFCU have worked out a method
              giving the Fraud Unit direct accessto the Medicaid agency’s database. In
              addition, the unit receives copies of all recovery letters sent by the agency.
              As a result, the unit receives approximately four referrals for each MFCU staff
              member which ranks it in the top quartile in quantity of referrals.




                                                 8

We found staff contacts in eachof theseStatesare not limited to formal meetings. Rather,
staff members are encouragedto contact their counterparts to discussand assistin identifying
and investigating cases. The MFCU staff is provided on-line accessto the Medicaid data
base.

We believe the working relationship in theseStatesbearsa definite relation to their effective
referral systems. Involving MFCU’s in actually identifying referrals also contributes to such
effectiveness. (This working relationship is in clear contrast to the poor relationships we dis­
cussin some of the examples in the previous section.)


RECOMMENDATION

The HCFA Should Encourage State Medicaid Agencies To Develop A Close Working Relu­
tionship With MFCU’s, Including MFCU’s Involvement In Actually Selecting Fraud Cases
And Effective Guidelines For Referring Possible Fraud Cases.




           Related OZG Activity:   The OIG will be working with MFCU’s to en-
           courage them to take all possible measuresto bring about a close work­
           ing relationship. Such measurecould include having formal and
           informal national meetings between MFCU and State agency leadership,
           developing processfor resolving differences between the two organiza­
           tions, and assuringthat MOU’s which meet the needsof both organiza­
           tions are being effectively implemented.




NOT ALL POTENTIAL SOURCES OF REFERRAL ARE USED IN MEDICAID
AGENCIES
Although the SURS unit is the most likely sourceof referrals, we found that,State Medicaid
agenciescontain other possible sources. Every Medicaid agency contains a separateProvider
Financial Audit Section which is a potential sourceof referrals. In addition, some of the large
State Medicaid agencieswe visited have establishedfraud investigative units which are organi­
zationally distinct from the SURS unit.

We found that with one exception the referral potential of the Financial Audit Units has not
been recognized in the Stateswe visited. Thus in most of theseStatesthere was little contact
between the SURS staff and the Financial Audit staff and in only one State agency were there
guidelines for financial auditors for recognizing, developing, and referring fraud cases. As a



                                                9

result, in theseStatesthere have been no referrals from this areato the Fraud Unit. (By con­
trast, the one State which has arrangedto tap this sourcehasreceived a large number of refer­
rals from the Financial Audit Unit.)

There was a similar lack of integration into the referral processof the special investigative
units established in a few of the larger Stateswe visited. These units had apparently been es­
tablished to supplement the SURS unit activities but the activities of theseunits were not coor­
dinated with the Fraud Control Units.


RECOMMENDATION

The HCFA Should Assure That AU Possible Sources Within The MedicaidAgencies Are
Making Appropriate Referrals, Including Separate Financial Audit And Investigative Units.


This can be done by the HCFA sending a reminder to all Medicaid agenciesthat all possible
sourcesof referrals within the agency should be used. Also, the HCFA regional staff can con­
fm such a tie-in hastaken place in subsequentcontactswith Medicaid agency.



          Related OIG Activity:   The OIG will be asking Fraud Units to explore
           other sourcesof referrals in the Medicaid agenciesand to arrangefor
           such sourcesto be included in the Memorandum of Understanding be-
           tween the Fraud Units and the Medicaid agencies.




MEDICAID AGENCIES WOULD BENEFIT FROM TECHNICAL ASSISTANCE IN
IDENTIFYING AND REFERRING POTENTIAL FRAUD CASES
While our discussionswith State agenciesfocused on referring of possible fraud casesrather
than identifying them, the methods for identifying fraud were also touched on. We found that,
in general, StateMedicaid agenciesconsider detecting fraud asone possible result of the
SURS system which, however, is designed to detect overpayments.

As a result, in none of the Stateswe visited have screensspecifically designed to detect fraud
been incorporated in the SURS system, and StateMedicaid managementwas not confident
that the expertise to design such screenswas available to the State agency. In addition, MFCU
managementin every State we visited indicated they saw a needfor additional training of
State agency staff in the recognizing program fraud. The HCFA hasprovided little technical



                                               10 

assistanceto develop such expertise. (The General Accounting Offke, in their report of Sep­
tember 1987 entitled, Improvements Needed in Programs to Prevent Abuse, GAO/HRD-87-
75, also recommended that State agenciesbe provided with technical assistanceto improve
abuseprevention).


RECOMMENDATION 


HCFA Should Assure That Medicaid Agencies Are .Given Increased Technical Assistance 

For Identifying And Referring To Potential Fraud The HCFA Should Also Designate A Co­

ordinator To Focus This Assistance And To Coordinate With The OIG In Connection With 

Related OIG Activities Outlined In This Report. 





          Related OIG Act@ities: The OIG staff is available to provide HCFA
          with support in this technical assistanceeffort. Also the OIG is working
          with the Fraud Control Units to develop a training package for use by
          Fraud Units in training of Medicaid agenciesin the areaof program
          fraud.

          In addition, the OIG will be requesting MFCU’s to include a clausein
          their MOU’s calling for Medicaid agenciesto consult with the Fraud
          Units concerning changesin the SURS screens. Where such a clauseis
          already presentin the MOU and not being implemented, the OIG will be
          urging MFCU’s to take stepsto implement that agreement.




         --



                                             11 

                                  AGENCY COMMENTS


OIG RECOMMENDATION

The HCFA Should Hold State Medicaid Agencies Accountable For Making Fraud Refer­
rals To MFCU’s.


HCFA COMMENTS 

We agreethat increasedemphasison StateSurveillance and Utilization Review (SUR) activi­

ties will significantly improve the fraud referral process. We plan to publish and disseminate 

the SW? Best Practices Guide by the end of this fiscal year. Stateswill be able to use theseex­

emplary practices to improve their analysis of casesfor fraud referral. We are also consider­

ing a State Medicaid h4anual (SMM) instruction outlining Statesaccountability for making 

referrals to MPCUs. However, we do not believe the System Performance Review (SPR) is 

the appropriate vehicle for measuring and evaluating fraud referrals by Medicaid agenciesbe­

causethe developmental work required for a fraud referral is completed outside the Medicaid 

Management Information System (MMIS). 



OIG RESPONSE 

The proposed HCFA actions are clearly directed at improving the State agencies’own capaci­

ties to identify fraud referrals. We believe such actions, while helpful, are not a substitute for 

holding the State responsible for making appropriate fraud referrals to MPCU’s. 


The HCFA is correct in pointing out that the SURS system is only a part of the fraud referral 

process. However, the SURS system is commonly the center of this processand it is therefore 

entirely appropriate to measureits contribution to fraud referrals aspart of the SystemsPerfor­

mance Review. 


In addition, HCFA at this time has no other method for gauging State agency performance. 

Our recommendation for greater accountability could also be implemented if HCFA choseto 

design and install a more general monitoring and penalty system 



OIG RECOMMENDATION

The HCFA Should Encourage State Medicaid Agencies To Develop A Close Working Reba­
tionship With MFCU’s, Including MFCU’s Involvement In Actually Selecting Fraud Cases
And Developing Eflective Guidelines For Referring Possible Fraud Cases.




                                                 12 

HCFA COMMENTS 

The HCFA is developing a workplan that will focus on strengtheningHCFA’s oversight of 

State SUR unit activities and improving the relationship between MFCUs and the SUR units. 

A significant phaseof this workplan for Fiscal Year 1990 will be to conduct regional SUR con­

ferencesthat will facilitate the exchangeof information between the MFCUs and the SUR 

units. We also plan to participate in the annual conferenceconducted by the national associa­

tion of SUR officials next spring. 


Concerning the OIG’s recommendation for direct accessto the SUR data base,we believe that 

the MFCUs should use the Memorandum of Understanding processto negotiate direct access 

to the SUR data abase. 



OIG RESPONSE 

We agreethat HCFA’s Best Practicesproject which coincides with our findings on an effective 

State Agency MFCU relationship, will give Stateshelpful information for improving the refer­

ral process. We believe, however, that HCFA should also directly encourageState agenciesto 

include in their MOU’s the close involvement by MFCU’s in the identification of likely refer­

rals. 





OIG RECOMMENDATION

The HCFA Should Assure That All Possible Sources Within The Medicaid Agencies Are
Making Appropriate Referrals, Including Separate Financial Audit And Investigative Units.




HCFA COMMENTS 

The HCFA agreeswith the recommended action and will senda Program Memorandum to all 

Medicaid agenciescommunicating the OIG’s concern that all possible sourcesof fraud detec­

tion within the agency should be usedfor fraud referral. 



OIG RESPONSE 

We would appreciatereceiving a copy of the HCFA Program Memorandum so that we can 

shareit with the fraud units. 





                                             13 

OIG RECOMMENDATION

The HCFA Should Assure That Medicaid Agencies Are Given Increased TechnicalAssis­
tance For Idkntifiing And Referring Potential Fraud. The HCFA Should Also Designate A
Coordinator To Focus This Assistance And To Coordinate With The OIG In Connection
With Related OIG Activities Outlined In This Report.




HCFA COMMENTS 

We agreewith the recommendation that HCFA appoint a coordinator, but believe the appoint­

ment should follow a meeting between our Bureau of Quality Control and OIG’s Office of In­

vestigations staff to determine specifically the duties of the coordinator. We will arrangefor 

such a meeting shortly. 



OIG RESPONSE 

We note the comments do not addressour recommendation that HCFA assureincreasedtechni­

cal assistanceto State agencies. We would be glad to work with HCFA on implementing this 

recommendation. 


Our Office of Investigations looks forward to the meeting HCFA mentions in their comments.




                                               14 

